11/13/03          THU 13:41 FAX 865 576 3213                 OAK RIDGE AUDIT                    AIGA
                                                                                                A4-                  0002


    (8.89)
 EFG (07-0)

 United States Government                                                    Department of Energy

 Memorandum
              DATE:   November 4, 2003

      REPLY TO        IG-36 (A03RL018)                                 Audit Report No.: OAS-L-04-03
       ATTN OF:


      SUBJECT:        Audit of Accelerated Remediation of Tank Waste at Hanford

                TO:   Roy J. Schepens, Manager, Office of River Protection


                      INTRODUCTION AND OBJECTIVE

                      Millions of gallons of radioactive waste, the result of decades of plutonium production, are
                      stored in underground tanks at the Hanford Site. The tanks hold about 11 million gallons
                      of High-Level Waste and 42 million gallons of Low-Activity Waste that must be treated
                      prior to disposal. The Department's Tri-Party Agreement with the U.S. Environmental
                      Protection Agency and the State of Washington requires that it immobilize all tank waste
                      stored at the Hanford Site by 2028 using a vitrification process to transform the waste into
                      glass.

                      The Department awarded a $4 billion contract to Bechtel National, Inc, in 2000 to construct
                      and commission a waste treatment plant at the Hanford Site. The plant was designed to
                      mix the waste with glass-forming materials, inject the mixture into a melter, and pour the
                      "vitrified" waste into canisters. The canisters would eventually be shipped to Yucca
                      Mountain for disposal. However, the plant was not designed to meet the Tri-Party
                      Agreement's 2028 immobilization deadline because funding required to build and operate
                      such a facility was considered to be unattainable. Rather, as currently designed, the plant
                      would not complete immobilization until 2046.

                      In response to recent initiatives to accelerate cleanup across the complex, the Hanford Site
                      revised its waste treatment plan in 2002 to complete immobilization of all tank waste by
                      2028, as required by the Tri-Party Agreement. The plan was revised to treat between 40
                      and 60 percent of the site's Low-Activity Waste using at least one of three supplemental
                      technologies-steam reforming, containerized cast stone, and bulk vitrification-thereby
                      accelerating the immobilization process. Initial cost estimates for these treatment
                      technologies range from $900 million to $1.3 billion over the life of the program.

                      The objective of this audit was to determine whether the Department's current plan for
                      immobilizing the Hanford Site's tank waste is cost-effective.
11/13/03   THU 13:42 FAX 865 576 3213               OAK RIDGE AUDIT               -+--* AIGA                •i003




             CONCLUSIONS AND OBSERVATIONS

             The Department's plan might not be the most cost-effective alternative because the plan
             does not consider an all vitrification approach using ion exchange sulfate removal
             technology as a viable alternative. In June 2003, the Office of Environmental Management
             (EM) conducted a review of the immobilization project and concluded that the use of ion
             exchange sulfate removal equipment could significantly increase production rates for the
             vitrification of Low-Activity Waste. EM requested that the Office of River Protection
             (ORP) evaluate the potential benefits that a sulfate removal process could have with respect
             to the vitrification facility. However, ORP did not perform a formal analysis of the sulfate
             removal process because it believed sulfate removal would add to the overall complexity
             and cost of the treatment plant.

             Without a complete analysis of the potential benefits available from using an ion exchange
             sulfate removal process, the Department may spend more than necessary to treat a portion
             of the Hanford Site's Low-Activity Waste using supplemental technologies. Also, legal
             and regulatory issues may preclude the use of supplemental technologies altogether. The
             U.S. Environmental Protection Agency and the State of Washington have accepted
             vitrification as a proven method of immobilization. However, there are significant
             concerns with the supplemental technologies currently under consideration. For example,
             according to a September 2003 study conducted by the contractor responsible for
             evaluating supplemental technologies, bulk vitrification does not provide sufficient
             containment of technetium, a highly mobile contaminant, thus allowing it to potentially
             leach into the groundwater. The study also identified a lack of waste performance data and
             intrusion concerns regarding the steam-reforming alternative,

             Since no formal recommendations are being made in this letter report, a formal response is
             not required. However, to ensure that the most cost-effective approach for treating Low-
             Activity Waste is identified, we suggest that you perform a complete analysis of the
             potential benefits available from use of sulfate removal equipment in the waste treatment
             plant currently under construction.


             SCOPE AND METHODOLOGY

             The audit was performed between November 1, 2002, and September 30, 2003, at the
             Hanford Site in Richland, Washington. The scope of the audit included a review of
             planning for construction and operation of the waste treatment plant and the treatment of
             tank waste at the Hanford Site from May 2002 to September 2003.

            To accomplish the audit objective, we reviewed the results of ORP's Assessment ofLow-
            Activity Waste Treatment and Disposal Scenariosfor the River Protection Project,issued
            in April 2003; analyzed the most current information available on the technical aspects and
            estimated costs of treatment alternatives; and held discussions with ORP and Office of
            Environmental Management program officials.




                                                   2
11/13/03   THU 13:42 FAX 865 576 3213                OAK RIDGE AUDIT               --**   AIGA                0004




             The audit was conducted in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and compliance
             with laws and regulations to the extent necessary to satisfy the audit objective.
             Accordingly, we assessed internal controls and performance measures established under the
             Government Performanceand Results Act of 1993 related to ORP's planning for treatment
             of radioactive waste stored at the Hanford Site and construction of the waste treatment
             plant. Because our review was limited, it would not necessarily have disclosed all internal
             control deficiencies that may have existed at the time of our audit. In performing this audit,
             we did not rely on computer-based data.

             We discussed the audit results with ORP's Assistant Manager for the Waste Treatment and
             Immobilization Plant on October 29, 2003.

             We appreciate the cooperation of your staff throughout the audit.




                                                     Terry . Brenmger, Director
                                                     En ' onmental Audits Division
                                                     Office of Inspector General

             cc: Assistant Secretary for Environmental Management
                 Team Leader, Audit Liaison Team, ME-2
                 Audit Liaison, Office of River Protection




                                                    3
11/13/03           THU 13:43 FAX 865 576 3213                  OAK RIDGE AUDIT                ---   AIGA                    0[005
 DOE F 13j 8
   (8.89)
 EFO (0'-90)
                                                                                                       Depammcnt of Enrgy
 United States Government


 memorandum
               DATE:   November 4,       2003
      REPLY TO:        IG-36 (A03RL018)

        SUBJECT:       Final Report Package for "Accelerated Remediation of Tank Waste at Hanford"
                 TO:   Linda J. Snider, Director for Planning and Administration (DPA)



                       Attached is the required final report package on the subject audit. The pertinent details are:
                            1. Staff days:      Programmed    n/a        Actual       n/a

                            2. Elapsed days:     Programmed 364          Actual      368
                            3. Names of OIG audit staff:
                                   Assistant Regional Manager:              Phillip D. Beckett
                                   Team Leader (Audit-Control-Point):       Michael R. Kuklok
                                   Auditor-in-Charge:                       Alan S. Nielsen
                                   Audit Staff:                             Debbie M. Thomas
                                                                            Luther A. Hughes
                       4.      This report has been discussed with OIG Investigations and Inspections personnel.
                                   Michael Matkowski, Investigations, May 27, 2003
                                   Rick Curran, Inspections, May 29, 2003
                       5.      Matters to be brought to attention of theIG or AIGA: None




                                                                 erry   B endlinger, Direc r
                                                                Envi onmental Audits Division
                                                                Office of Inspector General
                       Attachments:
                       1. Final Report (3)
                       2. Monetary Impact Report
                       3. IGDBMS File Printout
11/13/03     THU 13:43 FAX 865 576 3213                       OAK RIDGE AUDIT                   -- *+- AIGA                                   10O07




                                  MONETARY IMPACT OF REPORT NO.: 0AS-L-04-03


           1. Title of Audit:      Accelerated Remediation of High-Level Tank Waste at Hanford

           2. Division:            Environmental Audit Division (EAD)/ Richland Audit (RLA)

           3. Project No.:         A03RL018

           4. Type of Audit:

                 Financial:                                            Performance:       X
                    Financial Statement                                  Economy and Efficiency
                    Financial Related                                    Program Results
                 Other (specify type):

           5. Please report monetary savings identified in the report using applicable columns. Provide
           additional explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                                 MGT.              POTENTIAL
                       FINDING              COST                         QUESTIONED COSTS                   POSITION                BUDGET
                                         AVOIDANCE                                                                                  IMPACT
           (A)              (B)          (C)     (D)          (E)          (F)      (G)        (H)                   (I)                (1)
                           Tite        One     Recurring   Questioned     Unsup-   Unre-       Total        C-Concur                 Y=Yes
                                       Time    Amount                     ported   solved   (e)+(F)+G)      N-Noncon                 N=No
                                                PcrYcar                                                      U-Undec
                 N/A




           TOTALS-ALL FJNDINGS                              _______"                                      7 ",             " 7..    ,




           6. Remarks: Without performance of an in-depth cost analysis using current information and
                       looking at all options, ORP cannot be assured that it is taking the most cost
                       effective approach for treating and immobilizing Hanford's Low-Activity Waste.

           7. Contractor:  None                              10. Approvals:
           8. Contract No.: None                             Division Director/Date:                     '/A          -
           9. Task Order No.:  None                          Technical Advisor & Date                            /
11/13/03   THU 13:44 FAX 865 576 3213               OAK RIDGE AUDIT                  -*-*-   AIGA        ~009


                               POTENTIALLY SENSITIVE INFORMATION

           Letter Report on "Accelerated Remediation of High Level Tank Waste at Hanford"

           The following is a list of information considered to be potentially sensitive. If the
           information is detailed to such an extent that it would cause or could potentially
           cause damage to U.S. national security, citizens, or property, it cannot be included
           in our public reports. Therefore, when preparing your reports be sure to use this
           checklist to determine whether the report contains potentially sensitive information.

                        CATEGORIES/TYPES OF INFORMATION                                      YES    NO
           Facilities
           > Detailed description and location of facilities to include maps,                       X
             written directions, drawings, blue prints, photographs and the like
           > Detailed descriptions and location of storage facilities for nuclear or                X
               other hazardous materials
            > Detailed descriptions and location of personnel or facility support                   X
              systems (e.g. water supply, electrical supply systems,
              communications systems, emergency response
               personnel/equipment)___
            > Detailed descriptions and locations of computer systems used to                       X
              process, store, and transmit sensitive information.
            > Environmental Impact Statements that provide the consequences for                     X
               what is being studied.
            > Any detailed information pertaining to other sites that has not been                  X
              reviewed/approved by the other site.

           Materials
           > Form and quantity of hazardous materials, (chemical, nuclear,                    X
             biological)
           > Vulnerabilities of materials to unauthorized access or destruction.                    X
            > Consequences of release of hazardous materials                                        X
            > Detailed transportation related information (routes, maps, shipping                   X
              means, containers).

           Security/Safety
            > Detailed plans, procedures, communications, reaction times,                           X
              capabilities that would allow someone to determine vulnerabilities
              of the site.
            > Specific assessments, exercise results, evaluations for a particular                  X
              site
            > Specific personnel data identifying security/safety personnel                         X
            > Specific equipment and its potential uses                                             X




                                                        1
11/13/03   THU 13:44 FAX 865 576 3213                OAK RIDGE AUDIT                  AIGA
                                                                                       I44       0o010




                              POTENTIALLY SENSITIVE INFORMATION


           Assessments
           >   Site specific vulnerability assessments                                       X
           >   Site specific safety assessments/analysis  .....                              X
           >   Site specific risk analyses___                                                X
           >   Specific hazardous assessments (Dispersion models and analyses,               X
               accident analyses, or site hazards)

           Personnel
           > Specific organization charts or phone lists identifying senior                  X
              management/key personnel
           > Specific personal data to include travel plans, meetings and the like           X
           > Specific training materials that include sensitive information                  X

           Programs
           > Detailed information identifying sensitive programs, special                    X
              projects, SAPs, WFO
           > Reports detailing specific activities and/or results from programs              X
              and projects
           >. Information pertaining to specific programs at other facilities/sites          X
              that has not been cleared with the other sites for publication on a
              publicly accessible web site




                                                        2
 11/13/03                 THU 13:44 FAX 865 576 3213                                                                 OAK RIDGE AUDIT '                                                      AIGA
                                                                                                                                                                                             I                                      [oii

                                                                       Audit Project Office Summary                                                                  (APS)
                                                                                                                                                                                                                                Page   1
.port run on:                                          November 6, 2003 11:57 AM


 Audit#: A03RL018                                     Ofc;             RLA         Title: PLANNING FOR WASTE TREATMENT PLANT AT HANFORD



                                                                                 Planned                         End of Survey                             Revised                              Actual


  Entrance Conference:.....                                                 01-OCT-02                                                                01-NOV-02                              01-NOV-02

  Survey:.................                                                                                                                           26-FEB-03                              26-FEB-03
 Draft Report.............                                                 31-AUG-03                                                                 31-OCT-03
 Completed (With Report):.                                                 30-SEP-03                                                                 30-NOV-03                              04-NOV-03                    (R     )
  ------------ Elapsed Days:                                                             364                                                                         394                             368
                                                                                                                                                                     Elap.           Less Susp:
  Date Suspended:                                                                                          Date Terminated:
 Date Reactivated:                                                                                          Date Cancelled:
 DaysSuspended(Cur/Tot):                                                           (                     ) Report Number:                           OAS-L-04-03
 Rpt Title:                             Report Type:     LTR                                                                                                     LETTER REPORT
 AUDIT OF ACCELERATED REMEDIATION OF TANK WASTE AT HANFORD


  ., ,    !',.   __',__       * .           _A.   .    .           .         .**,*.           A     idi 'Code              ;,andPersonne                      l't***        .'         ,
 Class:                   PER         PERFORMANCE
 Program:             .EM             Not Found
 MgtChall:                032        ENVIRONMENTAL CLEANU
                                                                                                                                         AD:        327              BECKETT
 Site:                    SSA        SINGLE-SITE AUDIT
                                                                                                                                      AIC;          617              NIELSEN
 SecMiss:                 ENV        ENVIRONMENTAL QUALIT
                                                                                                                           Team Ldr:                546              KUKLOK
 PresInit:                           Not Found                                                                            Tech Adv:                 432              GAMAGE
                           •i•
                           ,,,• : .,•:•     ^'i'
                                    • ' ^ ,•,,
                                             :'
                                           .,,,-,,,                           ,",r,,:i",,,A; ";;.*r'®.r ' ";,"
                                                   i,' i .',,' *;'...:T,'•' ..:&',
                                                  .:"                                                        ,
                                                                                                            ."          ; ' ;ata'o;
                                                                                                                  . !nform
                                                                                                                       ,,'                          ,i ,. :';,,:,,
                                                                                                                               ,, . . ',,"**',*: i"'*;Th      j:     i, .              ,' ,i. "/ ',',,: *..,
                                                                                                                                                                                ; " .aT''                ", . *,,'" " , .".,J
                                                                                                                                                                                                                          ,


         Task No:
         Task Order Dt;                                                                                   CO Tech.             Rep:
         Orig Auth Hrs:                                                                                    Orig Auth Costs:
         Current Auth:                                                                                    Current Auth Cost:
         Tot Act IPR Hr:                                                                                  Tot Actl Cost:


                          i *EmIp ':ii'5y             . ,Nan e"''' *.. N                      aya"",'"'*          ,'"'' - La f '              "'"?"4
                                                                                                                                           'Date.. ..           ..          ,     ' ,'. '     ..• ,' '., •'. ,'


                              BOUGHTON,                        J                                  0.3                  16-NOV-02
                              HOPKINS,                     F                                      0.3                  30-NOV-02
                              KUKLOK,                 M                                       26.2                     01-NOV-03
                              HUGHES,                 L                                     118.8                      01-NOV-03
                              THOMAS,                 D                                     156.9                      20-SEP-03
                              NIELSEN,                  A                                   166.0                      01-NOV-03
                                Total:                                                      469.3
 11/13/03   THU 13:45 FAX 865 576 3213        OAK RIDGE AUDIT        --    I-0
                                                                          AIGA       U012

                            Audit   Project Office     Summary   (APS)
                                                                                 Page 3
sport run on:          November 6, 2003 11:57 AM




Audit No:   AO3RL018                 History Date:   06-NOV-03
History Text:
 PB/ENTERED COMPLETED WITR REPORT DATE.
     ^   ,.i   ,   J..
                    v    u   1t0   .     VUiJ   IV          '-fJ    .L\±JJU
                                                                   A6         &L -       .»J..V   V   WVVU




                                        AUDIT DATABASE INFORAMTION SHEET


 Project No.:                          A03RL018

 1. Title of Audit:                     "-,PCWi7                                     h
2.   ReportNo./Date                       0AS-L-04-03/November 4,        2003

3. Management Challenge Area:                                      032

4. Presidential Mgmt Initiative:                                   N/A

5. Secretary Priority/Initiative:                                  ENV

6. Program Code:                         EM-1/EM-3

7. Location/Sites:                       ORP

8. Finding Summary: None

We discussed the audit results with ORP's Assistant Manager for the Waste Treatment and
Immobilization Plant on October 29, 2003. Since no formal recommendations are being
made in this letter report, a formal response is not required. However, to ensure that the most
cost-effective approach for treating Low-Activity Waste is identified, we suggest that you
perform a complete analysis of the potential benefits available from use of sulfate removal
equipment in the waste treatment plant currently under construction..

9. Keywords: Accelerate                    Hanford
             Analysis                      Office of River Protection
             Bechtel National. Inc         Reduce/Reduction
             CH2M Hill Hanford Group       Savings
             Cost                          Study
             DOE                           Supplemental Technologies
             DOE-ORP                       Vitrification
             Effective/Effectiveness       Tank Waste
             Environmental Management (EM) Top-to-Bottom Review
             Federal                       Waste Treatment Plant
